                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A12100074                                                                        Page 1 of 1



                   We reviewed an allegation that a PI 1 had submitted a proposaf to receive funding for work
         that he had substantially completed under a previous NSF award. 3 The proposal reviews contain
         comments related to the writing ability (e.g. , numerous grammatical errors) and poor grantsmanship
         (e.g. , failure to provide sufficient detail of work to be done relative to preliminary results). The
         program officer has recommended that NSF not fund the proposal. Given the low quality of the
         proposal, we conclude there is insufficient evidence to support the allegation that the PI sought to
         receive funding for work substantially completed.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
